Report No. D-2007-082   April 9, 2007




   Defense Information Systems Agency
         Controls over the Center
         for Computing Services
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax
(703) 604-8932. Ideas and requests can also be mailed to:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704
               Department of Defense Office of Inspector General
Report No. D-2007-082                                                        April 9, 2007
   (Project No. D2006-D000FG-0053.001)

           The Defense Information Systems Agency Controls over
                    the Center for Computing Services

                                 Executive Summary

Who Should Read This Report and Why? Department of Defense personnel who
manage the services provided by Defense Information Systems Agency (DISA), Center
for Computing Services (CS) may find this report of interest, as will other CS user
organizations and their independent auditors. Supervisors of any part of the DoD
Information Assurance program may also find this report useful. This report supports the
overall Statement on Auditing Standards No. 70 audit and describes compliance with
general and application control objectives and compliance with applicable laws and
regulations, including the DoD Information Technology Security Certification and
Accreditation Process and the Security Technical Implementation Guides.

Background. The DoD Office of Inspector General is implementing a long-range
strategy to conduct audits of DoD financial statements to comply with the Chief Financial
Officers Act of 1990 (Public Law 101-576), as amended, which requires agencies to
prepare and submit to Congress audited financial statements. As part of this effort, we
performed a Statement on Auditing Standards No. 70 audit of CS in accordance with
generally accepted government auditing standards and the American Institute of Certified
Public Accountants standards. CS provides computer processing for the entire range of
combat support functions, including transportation, logistics, maintenance, munitions,
engineering, acquisition, finance, medicine, and military personnel readiness. With more
than 800,000 users, CS provides support for over 1,400 applications in 18 geographically
separate facilities. The reliability of general computer controls directly impacts
individual financial and accounting systems and feeder systems, and, ultimately, could
impact the ability of DoD to produce reliable and auditable financial statements.

Results. Controls associated with the Security Technical Implementation Guides,
training program, information assurance program, and Defense Enterprise Computing
Center Pacific needed improvement to ensure that information systems operated
effectively and provided appropriate confidentiality, integrity, and availability for the
systems located there. Without proper general and application controls in place, DISA
may not safeguard data; protect computer application programs; preclude unauthorized
access to system software and computing facilities; help to ensure continued computer
operation in case of unexpected interruptions; and effectively manage, operate, and
secure the computing environment; consequently, impacting security across the DoD
environment. Specifically:

       •   CS had ineffective processes for managing computing device configuration in
           accordance with the DoD Security Technical Implementation Guides. DISA
           needs to provide an effective security readiness review mechanism and
           properly manage all vulnerabilities. See finding A of the report for detailed
           recommendations.


                                             i
       •   DISA did not effectively and consistently monitor information assurance
           training and system administrator certification requirements for all personnel.
           DISA needs to improve the process of managing and tracking all training and
           certification requirements and completions. See finding B of the report for
           detailed recommendations.

       •   DISA needs to establish a more comprehensive and integrated information
           assurance program. See finding C of the report for detailed recommendations.

       •   The general controls over Defense Enterprise Computing Center Pacific were
           not effective. CS needs to enforce the applicable DoD and DISA policies on
           Defense Enterprise Computing Center Pacific. See finding D of the report for
           detailed recommendations.

Management Comments and Audit Response. The DISA Chief Information Officer
concurred with 2 recommendations and nonconcurred with 1 recommendation; the
Director, CS concurred with 20 recommendations and nonconcurred with
1 recommendation; and the Chief, Field Security Operations concurred with
1 recommendation. We agree with the actions proposed by the DISA Chief Information
Officer but request additional details on the actions. We request that the DISA Chief
Information Officer provide comments on the final report by May 9, 2007. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                         i


Background                                                                1

Objectives                                                                3

Findings
     A.    Security Technical Implementation Guides                       4
     B.    Training                                                       8
     C.    Information Assurance                                         11
     D.    Defense Enterprise Computing Center Pacific                   26

Appendixes
     A.   Scope and Methodology                                          31
     B.   Prior Coverage                                                 35
     C.   Sampling Approach                                              36
     D.   STIG Compliance                                                40
     E.   Criteria for Technical Evaluation                              44
     F.   Acronyms                                                       46
     G.   Report Distribution                                            47

Management Comments
     Defense Information Systems Agency, Chief Information Office        49
     Defense Information Systems Agency, Center for Computing Services   52
     Defense Information Systems Agency, Field Security Operations       58
Background
           The Defense Information Systems Agency (DISA) Center for Computing
           Services (CS) provides computer processing for a wide range of combat support
           functions, including transportation, logistics, maintenance, munitions,
           engineering, acquisition, finance, medicine, and military personnel readiness.
           With more than 800,000 users, DISA operates 1,400 applications in
           18 geographically separate facilities using approximately 40 mainframes and
           more than 3,000 servers.

           CS processing facilities, which are Defense Enterprise Computing Centers
           (DECCs), encompass 16 locations across the continental United States, as well as
           two overseas locations, Pearl Harbor, Hawaii, and Stuttgart, Germany. CS offers
           computer processing services for DISA-owned and customer-owned platforms.
           Services include computer operations, data storage, systems administration,
           security management, capacity management, systems engineering, web and portal
           hosting, architectural development, and performance monitoring. DECC
           personnel responsibilities include production operations, such as site operating
           functions that directly support customer requirements, as well as technical and
           customer support functions. The 16 continental United States DECCs are divided
           into the following three functional designations.

                  •    System Management Centers. The primary responsibility of each
                       System Management Center is systems management and customer
                       support for the mainframe and server computing environments. The
                       System Management Centers are located in
                       Mechanicsburg, Pennsylvania; Montgomery, Alabama; Ogden, Utah;
                       and Oklahoma City, Oklahoma.

                  •    Infrastructure Services Centers. The Infrastructure Services Centers
                       perform system management for specialized fielding efforts from CS
                       customers. The Infrastructure Services Centers are located in
                       Columbus, Ohio; San Antonio, Texas; and St. Louis, Missouri.

                  •    Processing Elements. Facility management, hardware support, physical
                       security, touch labor 1 for communication devices, and touch labor for
                       media management are the primary responsibilities of a Processing
                       Element. The Processing Elements are located in
                       Chambersburg, Pennsylvania; Dayton, Ohio; Denver, Colorado;
                       Huntsville, Alabama; Jacksonville, Florida; Norfolk, Virginia;
                       Rock Island, Illinois; San Diego, California; and
                       Warner Robins, Georgia.

           In addition to the DECCs, CS established two Communications Control Centers
           to provide centralized network management for all DECCs. The Communications
           Control Centers support all routing, switching, domain name servers, wide-area
           network connectivity to DISA Network Services, and network security device
1
    Touch labor is the physical on-site work needed when the systems are being remotely managed.



                                                     1
operations. The Communications Control Centers are co-located with DECCs
Montgomery and Oklahoma City.

DoD Information Assurance Requirements. DoD Directive 8500.1,
“Information Assurance,” October 24, 2002, and DoD Instruction 8500.2,
“Information Assurance Implementation,” February 6, 2003, provide the baseline
for the DoD Information Assurance (IA) Program and lay out five essential
competencies to ensure a successful risk management program. The five essential
competencies are the ability to:

      •   assess security needs and capabilities,
      •   develop a purposeful security design or configuration that adheres to a
          common architecture and maximizes the use of common services,
      •   implement required controls or safeguards,
      •   test and verify systems, and
      •   manage changes to an established baseline in a secure manner.

The DoD Instruction 8500.2 defines mission assurance categories (MAC) and
confidentiality levels. The MAC level reflects the importance of information
relative to the achievement of DoD goals and objectives, particularly the
warfighter combat mission. The MACs are the basis for determining availability
and integrity control requirements. The confidentiality level is primarily used to
establish acceptable access factors, such as requirements for individual security
clearances or background investigations, access approvals, and need-to-know
determinations. The confidentiality level is also used to establish interconnection
controls and approvals and acceptable methods by which users may access a
system, including intranet, Internet, and wireless access. The DoD Security
Technical Implementation Guides (STIGs) are written for MAC II Sensitive
systems. The MAC II Sensitive systems handle information that is important to
the support of deployed and contingency forces and the loss, misuse, or
unauthorized access to or modification of the information that could adversely
affect national interest or Federal programs.

Controls. Information technology (IT) controls are divided into two types of
controls, general and application. General controls are the policies and
procedures that apply to all or a large segment of an entity’s information systems
and help to ensure proper operation. Some primary objectives for general
controls include safeguarding data, protecting computer application programs,
precluding unauthorized access to system software, and helping to ensure
continued computer operation in case of unexpected interruptions. Application
controls are directly related to individual computerized applications. These
controls help ensure that transactions are valid, properly authorized, and
completely and accurately processed and reported. General and application
controls must be effective to help ensure the reliability, confidentiality, and
availability of critical automated information.




                                     2
Objectives
    The overall audit objective was to evaluate whether CS implemented controls to
    ensure that its systems and processes were secure and complied with significant
    applicable guidance and requirements. The objective of the audit was to
    determine whether (1) DISA general controls over the CS are adequately
    designed and effective, (2) general and application controls for internal
    applications that support CS management are adequately designed and effective,
    and (3) CS is in compliance with applicable Federal and DoD IT and IA policies.
    See Appendix A for a discussion of the scope and methodology of our review.
    See Appendix B for prior coverage related to the objectives.




                                       3
                     A. Security Technical Implementation
                        Guides
                     The CS had ineffective processes for managing computing device
                     configuration in accordance with the DoD STIGs. Specifically, the
                     quality assurance process for the Security Readiness Review (SRR) toolkit
                     was ineffective, CS did not properly manage all vulnerabilities, and DISA
                     was still in the process of implementing several recommendations from
                     previous reports. Non-compliance with the STIGs increases the risk of
                     losing data confidentiality, system integrity, and system availability.


Security Configuration Guidelines
           DoD Directive 8500.1 requires that all IA and IA-enabled IT products
           incorporated into DoD information systems be configured in accordance with
           DoD-approved security configuration guidelines. The Field Security Operations
           (FSO) develops system configuration guidelines, which are called the STIGs.
           The STIGs have become the foundation of translating the DoD IA requirements
           into technology-specific requirements.

           All DISA assets are to be configured in accordance with the STIGs. The
           “Mandatory Information Assurance Guidance, DISA Computing Services
           Operations Policy Letter CS 05-09,” August 31, 2005, establishes the minimum
           STIG compliance requirements for initial connection to the DoD network. Prior
           to system connection, a SRR must be performed in which the system is checked
           against manual procedures, automated scripts, and the FSO vulnerability scanning
           tool. The results from these assessments are uploaded into the Vulnerability
           Management System (VMS).


STIG Compliance
           The CS had ineffective processes for ensuring and managing computing device
           configuration in accordance with the DoD STIGs. We used a statistical sample of
           computing devices, to test for STIG compliance and used the minimum system
           setting requirements established by the Mandatory Information Assurance
           Guidance to determine the pass or fail of the computing devices. The Mandatory
           Information Assurance Guidance requires that all Category I 2 findings be closed
           and that minimum closure rates be based on the operating system for Category II 3
           findings. Table 1 contains the minimum closure rate for Category II findings.

2
    Category I findings are vulnerabilities that may result in a total loss of information and that provides an
    unauthorized person or software immediate access into a system, gains privileged access, bypasses a
    firewall, or results in a denial of service.
3
    Category II findings are vulnerabilities that provide information that has a high potential of giving access
    to an unauthorized person, or provide an unauthorized person the means to circumvent security controls.



                                                         4
                 Table 1. Category II Minimum Closure Rate
                 Operating System        Minimum Closure Rate
               Network                          90%
               IBM Mainframe                    85%
               UNIX                             85%
               Windows                          90%

    CS did not have effective processes to consistently or completely configure
    computing devices in accordance with STIGs. The following devices did not
    meet the minimum closure rates:

           •   All 19 of the IBM Mainframe,
           •   7 of 15 Network,
           •   5 of 46 UNIX, and
           •   36 of 52 Windows devices.

    For reporting purposes, we are only including results from the devices that we
    have performed substantive testing. Therefore, the total number of devices in the
    body of the report tested will differ from the total number used for statistical
    projection. See Appendix C for additional details on sampling approach and
    results.
    In addition, we identified noncompliant trends in password and account
    management, system permissions, security settings, and baseline comparison.
    Many of these issues were identified in prior audit reports. See Appendix D for
    details on specific STIG-noncompliant items.


Configuration Compliance Management
    The quality assurance process for the SRR toolkit was ineffective, CS did not
    properly manage all vulnerabilities, and DISA was still in the process of
    implementing several recommendations from previous audit reports. The lack of
    effective Windows and UNIX scripts hampers the ability of system administrators
    (SAs) to effectively manage security over computing devices and to adequately
    assess compliance with the STIGs. Additionally, the lack of visibility over the
    total number of vulnerabilities at the DECCs decreases DISA management’s
    awareness of the actual security posture across DISA. Finally, without fully
    implementing prior year recommendations, there remains an increased risk of
    losing data confidentiality, system integrity, and system availability.

    System Readiness Review Toolkit. The quality assurance process for the SRR
    toolkit released by FSO was not effective. The FSO develops scripts to test STIG
    compliance for various Windows and the UNIX devices on a quarterly basis.
    Once the FSO develops the scripts, the Systems Support Office (SSO)
    Montgomery, in conjunction with DECC Montgomery, performs a quality


                                        5
           assurance test of the Windows and UNIX scripts. The SSO Montgomery
           provides feedback to the FSO on the script issues identified during its quality
           assurance test and maintains issue logs. These issues identified for the UNIX
           script ranged from false positives and negatives, script syntax errors, and logic
           errors. The severity of these issues ranged from Category I to Category III. 4

           Based on the quality assurance test results, the FSO addresses as many of the
           identified issues as possible. After the FSO addresses the issues, the FSO sends
           the scripts back to the SSO Montgomery for customization. Once the scripts are
           customized for the DECCs, the SSO Montgomery releases the scripts to the
           DECCs. However, the customized scripts may still contain unresolved issues
           identified during the quality assurance test. For example, the quality assurance
           test log showed 50 outstanding UNIX script issues as of April 6, 2006. The FSO
           was not able to address all issues before releasing the scripts to the DECCs. The
           FSO needs to improve the quality assurance process to resolve the script issues
           prior to release.

           Vulnerability Management. DISA did not effectively manage all
           vulnerabilities. The VMS reports on the security weaknesses and the associated
           corrective actions through Plan of Action and Milestones (POA&M) reports,
           which support the Federal Information Security Management Act of 2002
           reporting requirements. The POA&M reports are used to identify and monitor IT
           security-related programmatic and system-level weaknesses found in programs
           and systems and serves as a baseline for assessing the maturity of the DoD IT
           security program. DISA prepared the high-level POA&M reports based on
           records maintained in the VMS. The POA&Ms are associated with each
           vulnerability, however, VMS did not include vulnerabilities identified by the
           DECC during self-assessments. Therefore, DISA may not have all the detailed
           information to provide aggregate POA&M reporting.

           Process Improvement. During our audit, DISA was in the process of fully
           implementing recommendations from our previous audit reports. In prior reports,
           we recommended that the Director, CS develop a program to familiarize the SAs
           with their specific roles in maintaining a secure computing environment,
           including: a) specific STIG requirements that the SAs must comply with and b)
           specific guidance on how to manually test STIG requirements not tested by
           automated scripts. The FSO took over the responsibility of the SA Certification
           Program, but had not completed the training curriculum. DISA expects
           completion of this training by July 31, 2007.

           Additionally, we recommended that the Director, CS disseminate and require the
           use of automated tools such as the Secure Configuration Compliance Validation
           Initiative and the Secure Configuration Remediation Initiative. As of
           December 4, 2006, CS was using the DoD enterprise solution of the Secure
           Configuration Compliance Validation Initiative and the Secure Configuration
           Remediation Initiative to implement recommendations in the following areas:
           passwords, services and protocols, peripheral devices, and configuration settings.
           However, CS does not expect to have them fully implemented until
           December 31, 2007.
4
    Category III findings are vulnerabilities that provide information that could lead to unauthorized access.



                                                        6
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Chief, Field Security Operations improve the
    quality assurance process to ensure that script issues are resolved and inform
    users of any unresolved issues or noncompliance with Security Technical
    Implementation Guide requirements.

    Management Comments. The Chief, FSO concurred and stated that the FSO
    had taken proactive measures and implemented changes in the security tool
    development and release process. In addition, the FSO engaged the Joint
    Integration Testing Center to perform independent testing of the Gold Disk for the
    remainder of the FY 2007 releases and planned to expand this effort to include the
    FSO-developed scripts in FY 2008, based on availability of funding.

    A.2. We recommend that the Director, Defense Information Systems Agency
    include all vulnerabilities, including those identified during self-assessments,
    with the appropriate Plan of Action and Milestone in the Vulnerability
    Management System.

    Management Comments. The DISA Chief Information Officer and the
    Director, CS concurred. The Director, CS provided additional information
    indicating that DISA is in the process of implementing the DoD IA tools for the
    Information Assurance Vulnerability Alert and STIG compliance. He expects to
    implement the DoD IA tools by December 31, 2007.

    Audit Response. Although the DISA Chief Information Officer and Director, CS
    concurred with the recommendation, implementing the DoD IA tools will not
    adequately ensure that vulnerabilities identified during self-assessments will be
    included in the Vulnerability Management System with the appropriate POA&M.
    Therefore, we ask that the DISA Chief Information Officer provide additional
    comments in response to the final report identifying specific actions that will
    account for vulnerabilities identified during self-assessments and the related
    POA&M.




                                        7
           B. Training
           DISA did not effectively and consistently monitor IA Awareness training
           and SA certification requirements for all personnel because DISA had
           multiple organizations tracking training and certification completions.
           Without effective and consistent monitoring of training and certification
           activities, DISA is at risk that access to sensitive information may be
           inappropriately granted and DISA has little assurance that all SAs have
           the proper credentials to effectively manage the systems.


Training Requirements
    DISA provides training and certification activities to personnel. DoD
    Directive 8570.1, “Information Assurance Training, Certification, and Workforce
    Management,” August 15, 2004, requires that:

          •   all authorized users of DoD information systems receive initial IA
              Awareness orientation as a condition of access and thereafter must
              complete annual IA Awareness training,

          •   privileged users and IA managers be fully qualified, trained, and
              certified to DoD baseline requirements to perform their IA duties,

          •   the status of the DoD Component IA certification and training be
              monitored and reported as an element of mission readiness and as a
              management review item, and

          •   the heads of DoD Components identify, document, and track IA
              personnel certifications and certification status.


Training Documentation
    DISA did not effectively and consistently monitor IA Awareness training and SA
    certification requirements for all personnel. We selected a judgmental sample of
    168 training records which show completion of IA Awareness training. Of the
    168 records, DISA could not provide personnel training records for 26 of the
    sample items. See Table 2 for the details.




                                        8
                    Table 2. IA Awareness Training Record
                                        Missing       Personnel
                      Location          Record        Requested
                  Columbus                 0              4
                  Headquarters             0              9
                  Mechanicsburg           23             80
                  Montgomery               0             17
                  Ogden                    0             41
                  Oklahoma City            0             11
                  Pacific                  1              1
                  San Antonio              0              3
                  St. Louis                2              2
                  Total                   26             168

     Additionally, we selected a judgmental sample of 112 SA Certification training
     records. The FSO could not provide records for 25 of the 112 SAs to show
     completion of certifications. See Table 3 for the details.

                   Table 3. SA Certification Training Record
                                        Missing         SAs
                      Location          Record        Sampled
                   Columbus                   0          14
                   Mechanicsburg             21          23
                   Montgomery                 4          23
                   Ogden                      0          12
                   Oklahoma City              0          38
                   San Antonio                0           1
                   St. Louis                  0           1
                   Total                     25          112


Training and Certification Monitoring
     DISA used three organizations to document and track IA Awareness training and
     SA certification and each of these organizations used different systems. The
     Chief Information Office and Manpower, Personnel, and Security were tracking
     IA Awareness training using two separate systems, and the FSO was tracking the
     SA certification activities using a spreadsheet. The Chief Information Office used
     the Training Notification and Tracking System, while Manpower, Personnel, and
     Security used the Corporate Management Information System to track IA


                                         9
    Awareness training. In addition, both of these systems were being replaced by
    the Washington Headquarters Services Learning Management System and the
    DISA Online Training System, respectively.

    The FSO did not have an effective system to monitor and track SA certification
    compliance. Instead, the FSO used a spreadsheet to monitor compliance.
    Currently, the FSO is developing a system called the DoD IA Learning Center.
    The mission of the DoD IA Learning Center is to establish and maintain the
    capability to deliver and track IA-related training to the DoD community through
    a standard web browser coming from a .MIL domain. Specifically, the DoD IA
    Learning Center will be able to track course information, training registration and
    completion, and the capability of reporting to multiple databases.

    With multiple organizations using multiple systems to track training and
    certification activities, CS cannot effectively or consistently monitor individual
    training and certification requirements and completion. As a result, some users
    may not receive the required IA Awareness training, users may not fully
    understand their security responsibilities, DISA would have little assurance that
    all SAs have the proper credentials to effectively manage the systems, and access
    to sensitive information may be inappropriately granted.


Recommendations and Management Comments
    B. We recommend that the Director, Defense Information Systems Agency
    designate an organization to centrally manage and track all training and
    certification requirements and completions.

    Management Comments. The DISA Chief Information Officer concurred and
    stated that DISA issued a policy on March 2, 2007, designating the Manpower,
    Personnel, and Security Directorate as the organization to centrally manage and
    track all training.




                                        10
           C. Information Assurance
           While DISA has made improvements in its overall IA program, additional
           improvements are still needed in the following areas:

                  •   security documentation,
                  •   audit trails,
                  •   host-based intrusion detection,
                  •   public domain software,
                  •   logical and physical access,
                  •   incident handling,
                  •   configuration management,
                  •   asset management, and
                  •   contingency plans.

           CS had not fully implemented Federal, DoD, and DISA policies. Until CS
           effectively implements an IA program that fully complies with DoD and
           DISA policy, there is an increased risk to the confidentiality, integrity, and
           availability of the applications operating in the DECCs.


Information Assurance Requirements
    DoD Instruction 8500.2, “Information Assurance (IA) Implementation,”
    February 6, 2003, establishes security requirements that apply to the definition,
    configuration, operations, interconnection, and disposal of DoD information
    systems. The IA controls developed under these requirements form a
    management framework for allocating, monitoring, and regulating IA resources
    that is consistent with Federal guidance provided in Office of Management and
    Budget (OMB) Circular No. A-130, “Security of Federal Automated Information
    Resources,” November 28, 2000. OMB Circular A-130 requires that agencies
    implement and maintain an information security program to ensure that adequate
    security is provided for agency information that is collected, processed,
    transmitted, stored, or disseminated in general support systems and major
    applications.


Security Documentation
    Security documentation, such as the System Security Authorization Agreement
    (SSAA), security plans, authority to operate, and Service Level Agreement
    (SLA), within CS was not consistently developed, approved, maintained, and
    updated. Without complete, accurate, and current security documentation, CS
    increases the risk of implementing inadequate security controls, having operating


                                        11
systems with risks above the accepted level, and failing to address customer
requirements.

System Security Authorization Agreement. CS did not consistently develop,
maintain, and update the SSAA. The SSAA is a formal agreement between the
Designated Approving Authority (DAA), the certifying authority, the IT system
user representative, and the program manager. It is used throughout the entire
certification and accreditation process and the DAA makes the decision to grant
an approval to operate based on the information contained in the SSAA. The
certification process is a comprehensive evaluation of the technical and
non-technical security features of an information system or site. The
accreditation is a formal declaration by the DAA that an information system or
site is approved to operate in a particular security mode using a prescribed set of
safeguards at an acceptable level of risk.

DECCs Columbus and Oklahoma City did not update their SSAAs to reflect the
changes resulting from the CS transformation that occurred during FYs 2004 and
2005. DoD Instruction 5200.40, “DoD Information Technology Security
Certification and Accreditation Process (DITSCAP),” December 30, 1997,
requires that the SSAA be modified to reflect new changes when new design
requirements emerge or existing requirements are modified. Because of the
dynamic nature within the CS environment and the continuous changes in
technology, CS management needs to constantly reassess the adequacy and
currency of the SSAAs. Without current and complete SSAAs, the CS increases
the risk of having inadequate security controls and being noncompliant with DoD
policies.

DECCs Columbus, Oklahoma City, and Pacific did not identify site criticality
(MAC level) in their SSAAs because the CS did not prepare the SSAAs to
include all the DoD Instruction 5200.40 requirements. The Instruction requires
that the SSAA identify the criticality and the acceptable risk of the site in meeting
the mission responsibilities. CS may not identify and implement proper security
controls without the site criticality identified in the SSAAs.

Security Plans. DoD Instruction 8500.2 requires that a security plan be
established that describes the technical, administrative, and procedural IA
program and policies and identifies all IA personnel and specific IA requirements
and objectives. A security plan documents an overview of the information
security requirements and describes the security controls in place or planned for
meeting those requirements. CS did not consistently develop, maintain, and
update the security plans. Specifically, DECC Pacific did not develop an
adequate security plan. DECC Pacific used an Information System Security
Policy as its security plan which did not contain the required elements of a
security plan. In addition, the DECC Columbus security plan did not reflect the
current functional description after the CS transformation. OMB Circular A-130
requires that the security plan be updated as necessary. Since CS operates in a
dynamic environment and the technology is constantly changing, CS management
needs to constantly reassess the adequacy and currency of the security plans.
Without current and complete security plans, CS increases the risk of having
inadequate security controls and being noncompliant with DoD policies.



                                     12
     Authority to Operate. The DAA did not approve the authority to operate based
     on timely information. Specifically, DECCs Denver and Jacksonville did not
     receive an authority to operate in a timely manner; 8 months after their SSAAs
     were reviewed and signed. This occurred because the DAA did not timely sign
     the accreditation memo. Outdated, incomplete, and inaccurate information in the
     SSAA may hinder the DAA decision-making process and increase the likelihood
     that systems with risks above the accepted level may be approved to operate.
     Therefore, DISA needs to improve the process to ensure that the accreditation
     decisions are made in a timely manner.

     Service Level Agreements. DoD Instruction 8500.2 requires that outsourced IT
     services explicitly address Government, service provider, and end user IA roles
     and responsibilities. CS did not ensure that customers identify relevant IA
     requirements during the SLA process to protect systems at the required levels.
     The SLA is the agreement between the customer and CS on the level of support
     that CS will provide and the expectations of the customer. None of the 45 SLAs:

            •   identified the MAC level for customer assets and related applications,

            •   identified the data disposition and sharing requirements, or

            •   indicated customer acceptance in the form of a signature.

     The template used to generate the SLAs did not require the MAC level, data
     disposition and sharing requirements. In addition, CS did not require their
     customers to sign the SLA. As a DoD service provider for IT services, CS needs
     to have a clear understanding of its roles and responsibilities, as well as those
     responsibilities of the customer for each individual application and system.
     Without addressing the MAC levels and data disposition and sharing
     requirements, CS may not implement appropriate system settings in accordance
     with user requirements, which could lead to a higher level of risk. Without
     customer signatures, CS cannot execute the agreement to provide
     customer-requested services or hold customers accountable for expenses incurred.


Audit Trails
     CS did not implement effective controls over the creation, review, and security of
     audit logs. We reported this in our prior year report. Specifically, the audit
     function was not enabled to create audit logs, audit logs were not reviewed, and
     audit logs were not properly protected. Audit logs are critical to providing
     information related to unauthorized and suspicious activities.

     UNIX and Windows system auditing was not enabled in accordance with the
     DoD STIGs. Ten out of 46 UNIX servers failed to capture the required auditable
     events. The UNIX STIG requires logging all successful and unsuccessful system
     accesses, unauthorized file access attempts, and system startup and shutdown.
     Thirteen out of 31 Windows 2000 systems were not configured to audit access to




                                         13
          global system objects and resources. The Windows STIG requires that access
          events to files, folders, and registry keys be audited. 5

          DECCs Montgomery, Ogden, St. Louis, and San Antonio did not regularly
          monitor and analyze audit logs in accordance with DoD policy. DoD
          Instruction 8500.2 requires that audit records from all available sources be
          regularly reviewed for indications of inappropriate or unusual activities, and that
          tools be available for the review of audit records and for report generation.

          Ten of the 132 systems did not have proper permission settings to protect the
          audit logs. Specifically, ten Windows devices were improperly configured. DoD
          Instruction 8500.2 requires that the contents of audit logs be protected against
          unauthorized access, modification, or deletion. The Windows 2003/XP/2000
          Addendum requires that only members of the Auditor Group have full access
          privileges to Windows audit logs. Full access privileges allow an individual to
          read, modify, and delete the contents of the audit logs.

          Auditing was not enabled and audit logs were not reviewed because information
          captured by the system logs was voluminous and the sites did not have automated
          tools to effectively and efficiently review all the logs. Audit log files were not
          protected because CS personnel were unaware that some permission settings were
          incorrectly set. Not capturing and reviewing critical system events on a regular
          basis increases the risk that inappropriate access or activity may not be detected.
          In addition, unprotected audit logs can be exposed to unauthorized alteration, and
          exploited to hide unauthorized or suspicious activities.

          This condition was previously reported in DoD IG Report Number D-2006-086,
          “Report on General and Application Controls at the Defense Information Systems
          Agency, Center for Computing Services,” May 18, 2006. We recommended that
          DISA implement consistent procedures across the entity to create, monitor,
          review, protect, and maintain CS system audit trails. Specifically, DISA should
          back up audit trails to a different media, maintain the audit trails for at least
          1 year, and configure permission settings correctly. We also recommended that
          DISA provide a standard set of auditing tools. DISA is currently reviewing
          various solutions and plans to begin the acquisition of the auditing tool in late
          FY 2007. While a tool or a set of tools will greatly improve the data analysis
          portion of the recommendation, DISA will not be able to analyze any breach of its
          systems if the audit trail does not exist or is not adequately protected. Therefore,
          the recommendations remain open, and we are not making any new
          recommendations.


Host-Based Intrusion Detection
          CS did not deploy host-based intrusion detection system (HIDS) software on all
          19 Windows 2003, 20 of 31 Windows 2000, and 14 of 48 UNIX systems. HIDS
          monitors a system or applications log files. HIDS responds with an alarm or a

5
    The Windows STIG encompasses The Windows 2003/XP/2000 Addendum and the various National
    Security Agency Guides to Securing Microsoft Windows.



                                               14
    countermeasure when a user attempts to gain access to unauthorized data, file, or
    services. DoD Instruction 8500.2 requires that HIDS be deployed for all major
    applications and for network management assets such as routers, switches, and
    domain name servers. The Windows STIG requires the Information Assurance
    Manager (IAM) to ensure DoD servers use HIDS.

    This condition was previously reported in DoD IG Report Number D-2006-030,
    “Report on Diagnostic Testing at the Defense Information Systems Agency,
    Center for Computing Services,” November 30, 2005. We recommended that the
    Director, CS identify all assets without HIDS and implement HIDS as required.
    The Director, CS concurred with the finding and stated that HIDS would be
    implemented DoD-wide once the DoD IA Work Group publishes guidance.
    According to CS management, DISA awarded a contract to implement a
    DoD-wide HIDS on March 31, 2006. However, the new DoD-wide HIDS will
    not be fully implemented until December 2007. Therefore, this recommendation
    remains open, and we are not making any new recommendations.


Public Domain Software
    Thirty-six of 57 computers judgmentally sampled contained unauthorized public
    domain or personal software. See Table 4 for details. DoD Directive 8500.1
    requires that public domain software products and other software products with
    limited or no warranty, such as those commonly known as freeware or shareware,
    should only be used in DoD information systems to meet compelling operational
    requirements. Such products must be thoroughly assessed for risk and accepted
    for use by the responsible DAA.

                        Table 4. Unauthorized Software
                                    Devices with      Devices
                    Location        Unauthorized      Sampled
                                      Software
                 Columbus                  0               3
                 Mechanicsburg            15              15
                 Montgomery                1              10
                 Ogden                    11              16
                 Oklahoma City             4               5
                 San Antonio               2               5
                 St. Louis                 2               2
                 Pacific                   1               1
                 Total                    36              57

    As part of the CS transformation, CS management began centralizing the local
    area networks. This centralization was called the Administrative Local Area
    Network (Admin LAN). One of the goals for the Admin LAN was to standardize


                                        15
     end user desktop and laptop software; therefore, CS was waiting for the
     implementation of the Admin LAN desktop management capabilities. The use of
     unauthorized public domain and personal software increases the risk of
     introducing vulnerabilities to the DoD computing environment.

     This condition was previously reported in DoD IG Report Number D-2006-086.
     We recommended that DISA develop a process to ensure that unapproved public
     domain software is not installed, to include regular inspection of the workstations.
     The Director, CS concurred with the finding and stated CS had developed a
     policy to ensure that public domain software products are not installed on CS
     systems. This policy includes removing privileged user rights from workstations
     and monitoring through the implementation of the Admin LAN. However, the
     monitoring feature within the Admin LAN will not be fully implemented until
     September 2007. Since we found public domain software was still installed on
     CS computing devices, this recommendation remains open, and we are not
     making any new recommendations.


Logical and Physical Access
     Controls over the following processes for remote logical access and physical
     access can be improved:

            • remote access authorization,
            • remote access two-factor authentication,
            • computer facility access authorization,
            • computer facility two-factor authentication, and
            • physical security policy.
     DISA needs adequate logical and physical access controls to prevent unauthorized
     individuals from gaining access to sensitive information and CS facilities.
     Remote Access Authorization. CS did not maintain proper authorization for
     remote access through a dial-up access. DoD Instruction 8500.2 requires that
     remote access for privileged functions be discouraged, permitted only for
     compelling operational needs, and strictly controlled. The Network Infrastructure
     STIG requires that the IAM develop a policy for secure remote access to the site
     and that an agreement, signed by the remote user, contains the general security
     requirements and practices and type of access required by the user. Of 180 users
     sampled, 17 did not have the appropriate authorization for remote access. Table 5
     contains the summary of remote access reviewed by location.




                                          16
                               Table 5. Remote Access Agreement
                     Location 6        Unauthorized             User Access
                                         Access             Agreements Sampled
                 Mechanicsburg              4                       45
                 Ogden                      6                       45
                 Oklahoma City              7                       90
                 Total                     17                       180


          The 4 users at DECC Mechanicsburg had unauthorized access to the dial-up
          service and the 13 users at DECCs Ogden and Oklahoma City did not have
          remote access agreements on file. This occurred because CS did not fully
          implement the access authorization process. Without proper access authorization
          procedures, CS has little assurance over the number of individuals having access
          to its systems.

          Remote Access Two-Factor Authentication. CS did not implement two-factor
          authentication for remote access. Specifically, DECCs Mechanicsburg, Ogden,
          and Oklahoma City did not use two-factor authentication for remote dial-up
          access. The Network Infrastructure STIG requires that the Information Assurance
          Officer (IAO) or Network Security Officer ensure that all remote users are
          required to use two-factor authentication to access the network. Two-factor
          authentication is accomplished by using two of the following: user identification,
          password, or token. DECCs did not use two-factor authentication for remote
          logical access because the centralization of remote access, as a feature of the
          Admin LAN, had not been fully implemented. Without a strong authentication
          mechanism, CS increases the risk that unauthorized individuals may gain access
          to sensitive information.

          Computer Facility Access Authorization. CS did not maintain proper
          authorization for computer facility access. From a sample of 566 personnel,
          34 individuals did not have the appropriate authorization to access the computer
          facility. Table 6 contains the summary of computer facility access reviewed by
          location.




6
    DECC Montgomery does not provide remote access through a remote access server. Therefore, remote
    access was not tested at DECC Montgomery.



                                                   17
                        Table 6. Computer Facility Access Agreement
                         Location 7       Unauthorized           User Access
                                            Access               Agreements
                                                                  Sampled
                      Chambersburg                0                  33
                      Columbus                   33                  45
                      Dayton                     0                   11
                      Huntsville                 0                   29
                      Jacksonville               0                   25
                      Mechanicsburg              0                   90
                      Montgomery                 0                   45
                      Norfolk                     0                  19
                      Oklahoma City               0                  55
                      Ogden                       0                  45
                      Pacific                     0                  45
                      Rock Island                0                   13
                      San Antonio                0                   45
                      St. Louis                  1                   45
                      Warner Robins              0                   21
                      Total                      34                  566


          DoD Instruction 8500.2 requires that only authorized personnel, with a
          need-to-know, are granted physical access to computing facilities that process
          sensitive information or unclassified information. At DECC St. Louis, 1 out of
          45 badge access request forms could not be located. At DECC Columbus, 33 out
          of 45 badge access request forms did not have signatures from the appropriate
          approving authority. This occurred because CS did not fully implement the
          access authorization process. Without proper access authorization procedures, CS
          would not be able to account for all badges issued.

          Computer Facility Two-Factor Authentication. Four of 17 DECCs required
          only one-factor authentication, instead of two-factor authentication. The
          CS Security Handbook mandates an access control system that requires swiping
          or presenting of an access card or token and entry of a personal identification
          number for entry to the computing facility. At DECCs Chambersburg, Pacific,
          San Antonio, and San Diego, the CS personnel only had to swipe a proximity card
          to gain access to the computer room. The lack of two-factor authentication
          increases the risk of unauthorized use of the access card in the event the card is
          misplaced or stolen.

7
    DECCs Denver and San Diego do not manage access to the computer facility. They were excluded from
    this test.



                                                   18
           Physical Security Policy. DECCs Mechanicsburg, Pacific, and St. Louis did not
           consistently follow physical security policy. At DECCs Mechanicsburg and
           Pacific, documentation could not be provided to demonstrate that they performed
           end-of-day and unannounced security checks within the computer facility.
           DoD Instruction 8500.2 requires that procedures be implemented to ensure the
           proper handling and storage of information, such as end-of-day security checks
           and unannounced security checks within the computing facility. In addition,
           DECCs St. Louis and Pacific did not have a facility penetration process in place
           to include periodic, unannounced attempts to penetrate key computing facilities.
           DoD Instruction 8500.2 requires that a facility penetration testing process be in
           place. Without periodic physical security checks, CS would not be able to
           identify and correct physical security weaknesses.


Incident Handling
           CS did not consistently complete Reportable Trouble Management System (TMS)
           Ticket Checklists for 51 of the 242 reportable incidents. Table 7 contains the
           summary of Reportable TMS Ticket Checklists reviewed by location.

                           Table 7. Reportable TMS Ticket Checklists
                          Location 8           Incomplete              Checklists
                                               Checklists              Reviewed
                     Columbus                       9                     22
                     Mechanicsburg                 6                      30
                     Montgomery                    14                     90
                     Ogden                          2                     30
                     Oklahoma City                 19                     65
                     St. Louis                      1                      5
                     Total                         51                    242

           DISA Computing Services Instruction 360-225-1, “Event Reporting Instruction,”
           December 7, 2004, requires the completion of a Reportable TMS Ticket Checklist
           for reportable incidents. The reportable incidents are operations incidents that are
           determined by CS management to have a significant impact on operations. The
           checklist includes information such as root cause, the troubleshooting performed,
           the availability of redundant systems, the overall impact on the customer mission,
           batch processing delays, and the physical location of the equipment or
           application.

           The Reportable TMS Ticket Checklists were not always consistently completed
           and CS management did not periodically review the Reportable TMS Ticket
8
    DECC San Antonio is not required to enter reportable incidents on production equipment because it only
    manages development and test systems. Therefore, incident handling was not tested at DECC San
    Antonio.



                                                     19
          Checklists to ensure proper completion. Without understanding the requirements
          of incident reporting and ensuring checklists are completed, CS has little
          assurance that the Reportable TMS Ticket Checklists would contain detailed
          records of the reportable incidents. The lack of detailed records on reportable
          incidents could prevent CS from effectively identifying incident trends,
          evaluating incident severity, and enhancing incident handling process.


Configuration Management
          Although CS had made significant improvements in its change and configuration
          management program by issuing the Operational Change and Configuration
          Management Plan, improvements were still needed over supervisory approvals.
          We could not obtain evidence of supervisory review for 3 of 175 change requests
          and 2 of 96 emergency changes, as shown in Table 8. In addition, DECC Pacific
          did not follow the Operational Change and Configuration Management Plan.

          DECC Pacific did not follow the Operational Change and Configuration
          Management Plan. DECC Pacific tracked changes using a local change request
          form. This local form did not include elements that would assist the local change
          control board in determining issues such as customer impact and technical
          feasibility, as required by the change and configuration plan.

                                   Table 8. Change Approval
                                                            Emergency
                               Changes                                      Emergency
                                               Changes       Changes
              Location 9        Lacked                                       Changes
                                                Tested        Lacked
                               Approval                                       Tested
                                                             Approval
          Columbus                  2            16             0                 2
          Mechanicsburg             1            30             0                24
          Montgomery                0            45             0                42
          Ogden                     0            30             2                12
          Oklahoma City             0            35             0                16
          St. Louis                 0            19             0                 0
          Total                     3            175            2                96
          These conditions occurred because the DECCs did not consistently follow the CS
          change management policies and procedures for documenting and approving
          changes.

          Our prior year audit report identified significant weaknesses regarding
          configuration management. The implementation of the Operational Change and
          Configuration Management Plan remediated many weaknesses identified in the

9
    Change management was not tested at DECC San Antonio because the DECC only manages development
    and test systems, not production.



                                                 20
           prior year audit. However, CS did not fully enforce the plan. As a result,
           unauthorized or inappropriate configuration changes could lead to potentially
           detrimental modifications to customer applications and negatively impact
           business operations and the CS infrastructure. CS needs to ensure that all changes
           are properly approved and documented, and that DECC Pacific follow the
           Operations Change and Configuration Management Plan.


Asset Management
           Although CS had effective general and application controls over the Integrated
           Asset and Configuration Management System (IACMS), CS did not consistently
           perform the quarterly census audit activities. Specifically, 11 of 16 10 DECCs
           could not provide evidence of performing the required quarterly audit to reconcile
           the IACMS data to the actual asset inventory. The IACMS is a web-based
           application designed and developed by CS to be the central repository of asset
           and configuration data for all CS-managed IT assets for each processing site. All
           hardware, software, and applications are required to be listed in the IACMS, and
           it is the source for all inventory-related data calls. The “DISA Computing
           Services Operations Operational Change and Configuration Management Plan,”
           March 21, 2006, requires that the DECCs quarterly census audits to compare and
           reconcile IACMS data to property management and asset accounting records. In
           addition, the Plan requires that a finding report to be generated within 10 working
           days following each audit. CS did not consistently perform the quarterly census
           audit activities because CS did not have detailed procedures to instruct the
           DECCs on how to conduct the required quarterly census audits. Without periodic
           validation of asset data, CS would not be able to provide accurate and complete
           reports in response to CS data calls pertaining to IACMS configuration inventory.


Contingency Plans
           While CS made improvements in its contingency plan process, management over
           contingency plans was not effective. Specifically, the site-specific contingency
           plans were not comprehensive, and 16 of 17 DECCs did not conduct the annual
           contingency plan testing.

           Site-Specific Contingency Plan. Eleven of 17 DECCs did not have
           comprehensive site-specific contingency plans. Specifically, DECCs Columbus,
           Denver, Jacksonville, Ogden, Rock Island, and St. Louis did not identify an
           alternate process site in their contingency plans. DECCs Chambersburg, Denver,
           Huntsville, Montgomery, Oklahoma City, Rock Island, San Antonio did not
           include emergency process priorities in their contingency plans.




10
     IACMS procedures were not tested at DECC Pacific.



                                                   21
   DoD Instruction 8500.2 requires that:

          •   alternate sites be identified that permit the partial restoration of
              mission- or business-essential functions and

          •   mission- and business-essential functions are identified for priority
              restoration planning along with all assets supporting mission or
              business essential functions.

   Periodic Testing. None of the DECCs, with the exception of Mechanicsburg,
   could provide documentation evidencing the performance of an annual
   contingency plan test. DoD Instruction 8500.2 requires that the contingency
   plans be tested annually. This testing would help the DECCs identify deficiencies
   in the plans, evaluate the viability of the plan, and could assist management in
   making necessary adjustments.

   Our prior year audit report recommendations included: establishing a standard
   process to review contingency plans to ensure they are comprehensive and
   complete, and establishing and implementing standard policies and procedures for
   performing annual comprehensive contingency plan testing. CS made progress
   by developing site-specific contingency plans and developing a Concept of
   Operations document, which requires testing and documenting annual
   comprehensive contingency plans; however, some plans were not comprehensive
   and did not include emergency processing priorities. As a result, there is an
   increased risk that critical business operations would be impaired in the event of
   service interruptions. Therefore, CS needs to ensure that all DECCs have
   comprehensive site-specific contingency plans to include all the required
   elements.


Summary
   CS still needed to improve its overall IA program. The lack of a comprehensive
   and integrated IA program could lead to security incidents that could go
   unprevented and undetected. Specifically, without complete, accurate, and
   current security documentation, CS increases the risk of operating systems with
   risks above the accepted level, implementing inadequate security controls, and
   failing to address customer requirements. Failure to perform the required audit
   functions increases the likelihood of not detecting inappropriate access or
   activities. Also, unprotected audit logs are exposed to unauthorized alteration,
   which could be exploited to hide unauthorized or suspicious activities.

   Additionally, the use of unauthorized public domain and personal software
   increases the risk of introducing vulnerabilities to the DoD computing
   environment. Also, the lack of a proper access authorization and authentication
   process and periodic physical security checks increases the risk of unauthorized
   individuals gaining access to sensitive information and CS facilities.

   Further, the lack of complete Reportable TMS Ticket Checklists could prevent CS
   from effectively identifying incident trends, evaluating incident severity, and


                                        22
    enhancing incident handling process. Without fully implementing the
    Operational Change and Configuration Management Plan, unauthorized or
    inappropriate configuration changes could lead to potentially detrimental
    modifications to customer applications and could negatively impact business
    operations and the CS infrastructure.

    Finally, without developing comprehensive site-specific contingency plans, there
    is an increased risk that critical business operations would be impaired in the
    event of service interruptions.


Recommendations, Management Comments, and Audit
  Response
    C.1. We recommend that the Director, Defense Information Systems Agency
    implement a process to track and monitor the time between the completion
    of the System Security Authorization Agreement and the accreditation
    decision to ensure timely decisions.

    Management Comment. The DISA Chief Information Officer nonconcurred
    and stated that the tracking of the SSAA and other certification and accreditation
    materials will be done through the DISA Certification and Accreditation Database
    and the Edge IA Portal. The Chief Information Officer suggested that the
    recommendation be reworded to implement a process to track and monitor the
    time between the completion of the SSAA and other certification and
    accreditation material needed for a timely accreditation decision.

    Audit Response. Although the DISA Chief Information Officer nonconcurred,
    the comments are responsive. We agree with the DISA Chief Information Officer
    on the importance of other certification and accreditation materials and the
    proposed tracking tool, but we did not reword the recommendation. No further
    comments are required.

    C.2. We recommend that the Director, Center for Computing Services:

           a. Implement a process to ensure that the certification and
    accreditation packages are properly developed, approved, maintained, and
    updated in accordance with applicable Office of Management and Budget
    and DoD requirements.

    Management Comments. The Director, CS nonconcurred and stated that CS has
    a process in place to ensure that the certification and accreditation packages are
    properly developed, approved, maintained, and updated. The Director, CS also
    indicated that CS will implement the DoD automated tools, as required by the
    new interim Defense Information Assurance Certification and Accreditation
    Process, once it is selected by DISA.

    Audit Response. Although the Director, CS nonconcurred, the process described
    to ensure that the certification and accreditation packages are properly developed,
    approved, maintained, and updated, and the future implementation of the DoD


                                        23
automated tools satisfies the intent of the recommendation. No further comments
are required.

        b. Require that the Service Level Agreements address all of the
requirements of DoD Instruction 8500.2 to include the identification of
criticality and data disposition and sharing requirements.

Management Comments. The Director, CS concurred and stated that CS had
updated the SLA format for FY 2007 to include the identification of criticality
and data disposition and sharing requirements.

       c. Require and verify the customer’s formal acceptance of the Service
Level Agreements.

Management Comments. The Director, CS concurred and stated that CS had
updated the SLA format for FY 2007 requiring each customer to formally accept
the SLA.

       d. Periodically review all remote access and facility access to ensure
that they are authorized and the access request forms are properly
documented and maintained.

Management Comments. The Director, CS concurred and stated that the CS
Chief of Operations issued a requirement on February 9, 2007, for site directors to
review all remote access and facility access to ensure the proper documentation
and maintenance of authorization and access request forms.

       e. Implement the two-factor authentication mechanism for remote
access and physical access across all Defense Enterprise Computing Centers.

Management Comments. The Director, CS concurred and stated that CS is in
the process of implementing the two-factor authentication mechanism for remote
access and expects to have it fully implemented by December 31, 2007. He
indicated that CS requested that the required sites implement the two-factor
authentication for physical access.

       f. Develop standard procedures for periodic physical security
assessments.

Management Comments. The Director, CS concurred and stated that on
February 9, 2007, the CS Chief of Operations issued a reminder to all site
directors that they are required to have a physical access penetration-testing
program in place.

Audit Response. Although the Director, CS concurred and issued a reminder
about the requirements, the response did not address procedures on how to
conduct the assessments. DISA is in the process of updating many of its IA
policies. We will review those policies and DISA compliance next year to
determine whether the recommendation can be closed. No further comments are
required.



                                     24
       g. Periodically review the Reportable Trouble Management System
Ticket Checklists to ensure that Defense Enterprise Computing Center
personnel are properly filling out the checklist in accordance with
Computing Services Instruction 360-225-1.

Management Comments. The Director, CS concurred and stated that the
CS Chief of Operations is in the process of issuing a new Computing Services
Incident Response Instruction with a revised checklist. He expects the instruction
to be signed and implemented by March 30, 2007.

     h. Require that configuration changes be properly approved and
documented in accordance with guidelines established by the Operational
Change and Configuration Management Plan.

Management Comments. The Director, CS concurred and stated that the
CS Chief of Operations issued a reminder to all site directors that changes must
be approved and documented in accordance with the Operational Change and
Configuration Management Plan.

      i. Require Defense Enterprise Computing Center Pacific to follow the
Operational Change and Configuration Management Plan.

Management Comments. The Director, CS concurred and stated that
DECC Pacific will implement the Operational Change and Configuration
Management Plan by March 31, 2007.

       j. Establish and implement comprehensive procedures to ensure that
the Defense Enterprise Computing Centers perform quarterly census audits
and reconciliations of the Integrated Asset and Configuration Management
System data.

Management Comments. The Director, CS concurred and stated that the
CS Configuration Management Program Office will develop standard operating
procedures by March 31, 2007.

       k. Periodically review comprehensive site-specific contingency plans
to ensure that all required elements are included.

Management Comments. The Director, CS concurred and stated that the
CS Enterprise Business Continuity Manager will review all site contingency plans
for all required elements by July 31, 2007.




                                    25
           D. Defense Enterprise Computing Center
              Pacific
           The general controls over DECC Pacific were not effective. Specifically,
           improvements are needed for controls over security documentation, IA
           Awareness training, account management, system configurations, audit
           trails, configuration management, public domain software, data backup,
           fire and emergency response, facility security, and hardware maintenance
           and disposal. DECC Pacific had not fully implemented DoD and DISA
           policies that would have mitigated these weaknesses. Until DECC Pacific
           effectively implements controls that fully comply with DoD and DISA
           policy, there is an increased risk to the confidentiality, integrity, and
           availability of the applications operating in DECC Pacific.


General Controls
    DECC Pacific was not part of the DISA transformation and was not included in
    our FY 2005 audit. This audit was the first comprehensive review of the controls
    at DECC Pacific, and we identified many of the same issues identified during our
    FY 2005 audit of continental United States locations. These issues included:

           •   security documentation (discussed in finding D),
           •   IA Awareness training (discussed in finding B),
           •   account management,
           •   system configurations,
           •   audit trails (discussed in finding D),
           •   configuration management (discussed in finding D),
           •   public domain software (discussed in finding D),
           •   data backup,
           •   fire and emergency response,
           •   facility security (discussed in finding D), and
           •   hardware maintenance and disposal.

    Account Management. DECC Pacific did not fully implement account
    management controls. Block 14 of the access request form, DD Form 2875, was
    not properly filled out for the two privileged users we selected. Their
    DD Form 2875s did not identify them as having privileged access. The CS
    Security Handbook requires that the user’s “supervisor must complete Part II,
    blocks 13 through 20b. The supervisor must identify systems, applications, and
    privileges.” The IAM stated that the process for documenting the two DD
    Form 2875s as being privileged users had been overlooked. In addition,
    DECC Pacific did not perform the annual re-validation of privileged user
    accounts as required by the CS Security Handbook. As a result, there is a risk


                                       26
that privileged users may be given additional access or have access rights that
they no longer need. CS needs to ensure that DECC Pacific adheres to the CS
Security Handbook policy on granting system access to privileged users and
conducts annual review of privileged user accounts.

System Configurations. DECC Pacific did not consistently follow DoD
Instruction 8500.2 policy pertaining to system configurations. We reviewed
12 devices and found, 3 devices were missing both warning banners and screen
locks, and 1 device was missing a screen lock setting. DoD Instruction 8500.2
requires a specific DoD logon warning message and workstation screen-lock
functionality. We reported this condition previously in DoD IG Report Number
D-2006-030, “Report on Diagnostic Testing at the Defense Information Systems
Agency, Center for Computing Services,” November 30, 2005 We recommended
that DISA enforce compliance with the STIGs for configuration and security
settings. The Director, CS concurred with the finding and stated that all site
IAMs have been re-briefed on the STIGs to include configuration and security
settings as part of the SA Certification Program. DISA was in the process of
developing this Program during the audit and stated that current SAs will
complete the Program by July 31, 2007. The SA Certification Program is
expected to include the technical and information assurance requirements of the
operating systems and how to implement these requirements within the DISA
environment. CS needs to ensure that SAs at DECC Pacific participate in the SA
Certification Program.

Additionally, out of 12 devices reviewed, 1 device was not updated with current
anti-virus protection. DoD Instruction 8500.2 requires virus protection that
includes a capability for automatic updates. DECC Pacific did not have
automated tools to push down the virus updates, and updating the virus protection
was a labor-intensive process. As a result, non-compliant systems may be
exposed to unnecessary risks, such as loss of confidentiality, integrity, or
availability of data. CS needs to provide DECC Pacific with a mechanism to
automatically receive anti-virus updates.

Data Backup. Controls over the data and program backup procedures were not
effective. For example, the DECC Pacific off-site storage agreements were not
signed, out of date, and listed former DECC Pacific employees as couriers. In
addition, DECC Pacific did not have distance waivers for the off-site storage
location being less than the required 25 miles. CS Policy 06-01, “Magnetic Tape
Backup and Storage by System Management Center (SMC), Infrastructure
Services Center (ISC), and Processing Element (PE) Activities,” October 7, 2005,
states that a waiver must be signed for distances less than the 25 mile minimum
distance between site and off-site location. DECC Pacific needs to have current
and signed off-site storage agreements. Additionally, CS needs to provide official
documentation accepting the risk of having an off-site storage location less than
the required 25 miles away.

DECC Pacific had one iteration of tapes stored at one of the two off-site locations.
DISA Computing Services Letter of Instruction 06-01 requires two iterations of
backups be maintained at the off-site storage location. In addition, Microsoft
Windows backups being sent off-site were incomplete. DoD Instruction 8500.2
requires that data backup be performed daily and recovery media is stored off-site


                                    27
    at a location that affords protection of the data in accordance with its MAC and
    confidentiality level. DECC Pacific was aware of the situation, but could not
    identified a cause for the incomplete backup at the time of the audit. As a result,
    DECC Pacific inappropriately used time and resources by creating incomplete
    backups and sending them off-site. In the event that a backup needs to be
    restored, the appropriate backup tapes may not be available for recovery.
    DECC Pacific needs to have two iterations of backups maintained at the off-site
    storage location. Additionally, DECC Pacific needs to identify and resolve
    backup tape creation issues to allow for the creation of complete backup tapes.

    Environmental Controls. DECC Pacific did not maintain records proving
    periodic fire marshal inspection and did not conduct environmental controls
    training. DoD Instruction 8500.2 requires that computing facilities undergo a
    periodic fire marshal inspection and deficiencies are promptly resolved and that
    all employees receive initial and periodic training in the operation of
    environmental controls. Without proper documentation of fire marshal
    inspections, DECC Pacific would not be able to promptly resolve deficiencies. In
    addition, without proper environmental controls training, personnel may not know
    how to respond in the event of an emergency. DECC Pacific needs to maintain
    records of fire marshal inspections and provide personnel with environmental
    controls training and document the training.

    Hard Drive Disposal. Controls over hard drive disposals were not effective.
    DECC Pacific does not maintain a list of all hard drives that have been sanitized,
    degaussed, or destroyed. The Assistant Secretary of Defense Memorandum,
    “Disposition of Unclassified DoD Computer Hard Drives,” June 4, 2001, requires
    a list of sanitized, degaussed, or destroyed hard drive be maintained by the
    certifier. Without a record to certify that hard drives have been properly
    disposed, DECC Pacific would have no assurance that all disposed hard drives
    have gone through the appropriate precautionary procedures before being released
    outside DoD. DECC Pacific needs to maintain records of all disposed hard drives
    to prevent the risk of exposing sensitive DoD information and data.


Recommendations and Management Comments
    D. We recommend that the Director, Center for Computing Service:

           1. Require Defense Enterprise Computing Center Pacific to follow
    the access authorization and access re-validation procedures for privileged
    accounts outlined in the Center for Computing Services Security Handbook.

    Management Comments. The Director, CS concurred and stated that
    DECC Pacific completed the re-validation of all privileged access authorizations
    in accordance with the CS Security Handbook on January 15, 2007.

          2. Require Defense Enterprise Computing Center Pacific System
    Administrators to participate in the System Administrator Certification
    Program.



                                         28
Management Comments. The Director, CS concurred and stated that CS now
requires all DECC Pacific SAs to participate in the SA Certification Program.

     3. Provide Defense Enterprise Computing Center Pacific with a
mechanism to receive automatic anti-virus updates.

Management Comments. The Director, CS concurred and stated that
DECC Pacific now has a mechanism to receive automatic anti-virus updates.

       4. Require that Defense Enterprise Computing Center Pacific have
signed and current off-site storage agreements.

Management Comments. The Director, CS concurred and stated that
DECC Pacific will have a signed and current off-site storage agreement by
March 31, 2007.

     5. Provide an official risk acceptance for the Defense Enterprise
Computing Center Pacific off-site storage location being less than the
minimum required 25 miles.

Management Comments. The Director, CS concurred and stated that the
CS Chief of Operations will provide DECC Pacific with a waiver for the off-site
storage location being less than the minimum required distance by March 31,
2007.

        6. Enforce the Defense Information Systems Agency Computing
Services Letter of Instruction 06-01 on Defense Enterprise Computing
Center Pacific requiring that two iterations of backups be maintained at the
off-site storage location.

Management Comments. The Director, CS concurred and stated that
DECC Pacific backup procedures will be compliant with the DISA CS Letter of
Instruction 06-01 by April 30, 2007.

       7. Assist Defense Enterprise Computing Center Pacific in identifying
and resolving backup tape creation issues.

Management Comments. The Director, CS concurred and stated that
DECC Pacific will implement proper backup procedures by April 30, 2007.

      8. Require Defense Enterprise Computing Center Pacific to adhere to
DoD Instruction 8500.2 regarding periodic fire marshal inspections and
maintain the inspection records.

Management Comments. The Director, CS concurred and stated that
DECC Pacific will have annual fire marshal inspections and maintain the
inspection records.

      9. Require Defense Enterprise Computing Center Pacific to adhere to
DoD Instruction 8500.2 on the training requirements for the operation of
environmental controls and maintain the training records.


                                   29
Management Comments. The Director, CS concurred and stated that
DECC Pacific will have its maintenance personnel properly trained by
March 31, 2007, and will maintain the training records.

       10. Require Defense Enterprise Computing Center Pacific to
implement a control to account for all disposed hard drives in accordance
with the Assistant Secretary of Defense Memorandum, “Disposition of
Unclassified DoD Computer Hard Drives.”

Management Comments. The Director, CS concurred and stated that
DECC Pacific updated its security standard operating procedures on
February 15, 2007, to include the proper procedures for disposing unclassified
hard drives in accordance with the Assistant Secretary of Defense Memorandum,
“Disposition of Unclassified DoD Computer Hard Drives.”




                                  30
Appendix A. Scope and Methodology
   We performed IA and compliance assessment procedures of the DISA CS
   controls at 17 data processing locations from December 1, 2005, through January
   17, 2007. This assessment was performed in accordance with the American
   Institute of Certified Public Accountants Statement on Auditing Standards 70 and
   with generally accepted government auditing standards. Specifically, the audit
   was intended to determine whether DISA (1) general controls over CS are
   suitably designed and operating effectively; (2) application controls for an
   internal application system, IACMS, are suitably designed and operating
   effectively; and (3) CS is in compliance with applicable Federal and DoD IT and
   IA policies. The scope of this audit was limited to unclassified systems that DISA
   manages within the DECCs.

   The audit methodology used to perform the compliance assessment procedures
   was developed using the audit methodologies defined by the Federal Information
   System Controls Audit Manual and the Government Accountability Office (GAO)
   Financial Audit Manual. The audit program was developed using the CS Security
   Handbook and the following DoD IA documentation: DoD Directive 8500.1,
   “Information Assurance,” DoD Instruction 8500.2, “Information Assurance
   Implementation,” DoD Instruction 5200.40, “DoD Information Technology
   Security Certification and Accreditation Process (DITSCAP),” DoD
   Manual 8510.1-M, “DoD Information Technology Security Certification and
   Accreditation Process (DITSCAP) Application Manual,” and DoD STIGs.

   SAS 70 Procedures. We assessed the design and operating effectiveness of IT
   controls specified by DISA management at the following DISA and CS
   Headquarters locations:

          •   Arlington, Virginia - Chief Information Office and Manpower,
              Personnel and Security;

          •   Chambersburg, Pennsylvania - Business Management Center,
              Logistics, and FSO;

          •   Denver, Colorado - CS Headquarters, Business Management Center
              and Logistics; and

          •   Falls Church, Virginia - CS Headquarters.

   We reviewed the controls at DISA and CS Headquarters locations to obtain an
   understanding of the centralized functions of the organization. This included
   obtaining an understanding of the 14 categories on the next page and of the
   entity-wide policies and procedures for risk assessment, security planning,
   monitoring, and security management; personnel security and human resource
   management; and the SLAs process between CS and its user organizations.




                                       31
We assessed IT controls at the following CS Locations:

                   Center for Computing Services Locations
System Management Centers                Processing Elements
   Mechanicsburg, Pennsylvania             Chambersburg, Pennsylvania
   Montgomery, Alabama                     Dayton, Ohio
   Ogden, Utah                             Denver, Colorado
   Oklahoma City, Oklahoma                 Huntsville, Alabama
Infrastructure Services Centers            Jacksonville, Florida
   Columbus, Ohio                          Norfolk, Virginia
   San Antonio, Texas                      Rock Island, Illinois
   St. Louis, Missouri                     San Diego, California
Defense Enterprise Computing Center        Warner Robins, Georgia
   Pearl Harbor, Hawaii

We conducted a full review at all the System Management Centers, Infrastructure
Services Centers, and DECC Pacific. The full review consisted of IT controls in
the following 14 categories, as specified by CS.

       •   security program
       •   risk assessments,
       •   site security plans,
       •   security management,
       •   personnel policies,
       •   information resource classification,
       •   user account management,
       •   physical access,
       •   logical access,
       •   network and telecommunications security,
       •   incident response,
       •   access monitoring procedures,
       •   systems changes to DISA-owned assets, and
       •   service continuity procedures.

We performed a limited review at all the Processing Elements. The limited
review consisted of IT controls in the areas of physical access and service
continuity.




                                    32
Compliance Assessment Procedures. DoD has developed STIGs for a variety
of common computer platforms in the DoD environment. We used the DoD
STIGs to develop appropriate risk-based audit procedures.

DoD has categorized STIG vulnerabilities into four categories ranging from the
most critical (Category I) to least critical (Category IV). Category I and II
represent the most significant risk of having an operational impact on CS
operations. We tested all Category I and Category II STIG requirements.

We assessed a statistical sample of the CS unclassified systems from May 2006
through July 2006. See Appendix C for statistical sampling details. The
compliance assessment procedures included: (1) reviewing the FSO scripts (for
those platforms that have such scripts) and validating scripts against the STIGs,
(2) running the DISA scripts or performing manual procedures against systems in
the selected statistical sample, and (3) evaluating the results against the defined
settings in the STIGs. In addition to the scripts, we also reviewed additional
reports that were coordinated with FSO and CS such as Computer
Associate-Examine for the IBM mainframe systems in the sample. During the
audit we encountered a few devices that we could not perform substantive testing.
See Appendix C for details.

If a vulnerability was identified through either the script or manual review
process, we discussed it with the site IAM and the respective SA. We also
requested documentation from CS for the DAA acceptance of the vulnerability, if
applicable.

We assessed the DECCs compliance with DITSCAP requirements by reviewing
the available SSAA and Certification and Accreditation documentation.

We assessed DECC compliance with DoD Instruction 8500.2 by reviewing
documentation supporting the DECC’s policies, assignment of responsibilities,
and procedures for applying integrated, layered protection of DoD information
systems and networks controlled by CS.

Application Controls. We assessed application controls over the IACMS
application owned and operated by CS. Specifically, we reviewed the inputs,
processes, and outputs of the IACMS application that CS uses to track individual
CS computer assets in its computing environment.

Sampling Methodology. We based our sampling on the GAO Financial Audit
Manual, Section 450. When possible, we selected judgmental samples of 45 at
each site or used the entire population.

Use of Computer-Processed Data. We did not rely on computer-processed data
to perform this audit. Rather, we assessed the configuration settings and controls
implemented on the devices tested that involved computer-extracted data such as
user password settings and services running on the devices.

User of Technical Assistance. The Technical Assessment Directorate of the
DoD Office of Inspector General reviewed test plans and audit results.



                                    33
Additionally, we received assistance from the Quantitative Methods Director of
the DoD Office of Inspector General for development of the sampling process.

Government Accountability Office High-Risk Area. The GAO has identified
several high-risk areas in DoD. This report provides coverage of the effective
Management of Information Technology Investments high-risk area.




                                   34
Appendix B. Prior Coverage
    During the last five years, the GAO and the Department of Defense Inspector
    General (DoD IG) have issued 9 reports discussing the topic of improving DISA
    investment planning and management controls. Unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-02-50, “Defense Information Systems Agency Can
    Improve Investment Planning and Management Controls,” March 2002


DoD IG
    DoD IG Report No. D-2006-107, “Defense Departmental Reporting System and
    Related Financial Statement Compilation Process Controls Placed in Operation
    and Tests of Operating Effectiveness for the Period October 1, 2004, through
    March 31, 2005,” August 18, 2006

    DoD IG Report No. D-2005-086, “Report on General and Application Controls at
    the Defense Information Systems Agency, Center for Computing Services,”
    May 18, 2006

    DoD IG Report No. D-2006-046, “Technical Report on the Defense Property
    Accountability System,” January 27, 2006

    DoD IG Report No. D-2006-030, “Report on Diagnostic Testing at the Defense
    Information Systems Agency, Center for Computing Services,”
    November 30, 2005

    DoD IG Report No. D-2006-031, “Report on Penetration Testing at the Defense
    Information Systems Agency, Center for Computing Services,”
    November 30, 2005

    DoD IG Report No. D-2005-105, “Report on Defense Information Systems
    Agency, Center for Computing Services Controls Placed in Operation and Tests
    of Operating Effectiveness for the Period October 1, 2004 through
    April 30, 2005,” September 6, 2005

    DoD IG Report No. D-2005-093, “Technical Report on the Standard Finance
    System,” August 17, 2005

    DoD IG Report No. D-2005-069, “Audit of the General and Application Controls
    of the Defense Civilian Pay System,” May 13, 2005


                                      35
Appendix C. Sampling Approach

Overview
    The general controls testing required detailed technical analysis of selected
    security settings and configurations. General controls testing encompassed
    diagnostic testing, which is the testing of the technical controls implemented in
    the CS environment. We developed work programs based on the DoD STIGs and
    DoD Instruction 8500.2. Diagnostic testing consisted of an analysis of data
    extracted by automated scripts and supplemented by interviews with site SAs.
    Due to the high number and variety of system devices managed by CS, a
    statistical sampling approach was employed to select the items to be tested. Upon
    completion of testing, we summarized exceptions following DoD and DISA
    criteria, and statistically projected the results to the CS environment.


Sampling Approach and Objective
    One of the audit objectives was to determine whether CS general controls were
    adequately designed and operating effectively. We selected a sample of assets,
    covering different technologies, to determine the level of compliance with DoD
    and CS policies. We followed the GAO Financial Audit Manual Section 450 to
    determine a sample size for diagnostic testing. We used the sampling strategy to
    obtain an estimated upper limit for the rate of logical information systems
    controls at risk in the population within 5 percent precision at the 90 percent
    confidence level for comparison to the GAO Financial Audit Manual; and to
    obtain an overall estimate of the number of logical information systems controls
    at risk.


Sampling Design
    Sample Frame. The FSO provided an inventory of CS systems extracted from
    the VMS. The FSO provided an inventory list as of February 14, 2006, that
    contained 5,767 assets across all CS data centers. We modified the inventory list
    by eliminating non-applicable assets, DECC Europe assets, and non-CS assets.
    As a result, the sampling frame contained 4,846 assets. Table C-1 shows the
    modified sampling frame by group.




                                        36
                Table C-1. Sampling Frame by Group
                Group       Operating System         Assets
                  1         Other                      1,096
                  2         IBM Mainframe                127
                  3         UNIX                       1,617
                  4         Windows                    2,006
                Total                                  4,846

Sample Size. At 90 percent confidence, the estimated sample size needed to
obtain 5 percent precision was 117 items. We imposed a minimum number of
20 items per group, which resulted in a total sample size of 141 items.

During fieldwork, we discovered an additional 22 out-of-scope (such as assets not
connected to the network or classified systems) and 18 decommissioned assets.
As a result, the original sample of 141 devices decreased to 101 devices available
for testing. To maintain a sufficient sample size, we supplemented 40 items to the
sample. We selected supplemental assets using the same random seed as the
original sample in order to preserve the original selection probabilities and the
randomness of the sample. Table C-2 shows the original sample size, the sample
available for testing, supplemental items, and the adjusted sample size by group.

   Table C-2. Original, Supplemental, and Adjusted Sample Size by Group
                                       Original
                                                                        Adjusted
             Operating Original        Sample         Supplemental
   Group                                                                Sample
              System   Sample        Available for       Items
                                                                          Size
                                       Testing
     1      Other            20            8                12             32
            IBM
     2                       20            16                  4           24
            Mainframe
    3       UNIX              47            39              8              55
    4       Windows           54            38              16             70
   Total                     141           101              40             181

We did not complete testing on all sampled devices. We did not test one
mainframe device and one Windows device due to timing constraints. We also
discovered that one network device never existed. In addition, we encountered
one UNIX device that had a non-configurable operating system. We also did not
test three network devices, one UNIX device, and one Windows device due to
resource constraints.




                                    37
Sample Results
     Testing Criteria. To determine the non-failure or failure of each device, we used
     the DISA Computing Services Operations Policy Letter CS 05-09, “Mandatory
     Information Assurance Guidance,” August 31, 2005. For the estimation
     calculation, we used a total of 181 systems, which included the 22 out-of-scope,
     18 decommissioned and 9 not-tested devices. We treated out-of-scope,
     decommissioned, and not tested items as non-failures. The inclusion of these
     non-failure items produced a conservative estimate of the percentage of failures.
     Table C-3 lists the non-failures and failures found within each group.

                      Table C-3. Sample Evaluation Results
              Operating             Sample           Non-             Failures
                System               Items         Failures*
           Other                       32              25                 7
           IBM Mainframe               24              5                 19
           UNIX                        55              50                5
           Windows                     70              34                36
           Totals                     181             114                67

            * Non-failures include decommissioned, out-of-scope, and not-tested items.

Result Interpretations
     The estimated percent of logical information systems access controls failures is
     about 31 percent. The percentage of failures would only apply to the projection
     of the sample frame of 4,846 assets, as shown in Table C-4. The 90 percent upper
     confidence bound is about 35 percent.

     According to the GAO Financial Audit Manual Section 450, at 90 percent
     confidence, an upper confidence boundary at less than 5 percent indicates that the
     auditors can have high reliance on controls; an upper confidence boundary
     between 5 percent to 10 percent indicates that the auditors can have moderate
     reliance on controls; and an upper confidence boundary at greater than 10 percent
     indicates that the auditors can have little or no reliance on controls. Thus, the
     estimate and the upper confidence boundary exceed the upper tolerable limits,
     according to GAO Financial Audit Manual Section 450. Based on the sample
     results, we concluded that the logical information systems access controls are not
     operating as designed and cannot be relied upon.




                                             38
                                         Table C-4. Sample Counts by Group

                                 Original Counts                Adjusted Sample      Sample Results

        Operating      Original      Sample     Original    Supplemental     Final  Non-                 Estimated
Group                                                                                         Failures
         System       Population     Frame      Sample         Items        Sample Failures              Weights*

  1     Other            1,666        1,096        20             12          32      25         7         34.25

        IBM
  2                       141          127         20              4          24       5        19         5.29
        Mainframe

  3     UNIX             1,715        1,617        47              8          55      50         5         29.40

  4     Windows          2,245        2,006        54             16          70      34        36         28.66

Total                    5,767        4,846        141            40         181      114       67

 *The estimation weight is the inverse of the achieved sampling fraction.




                                                           39
Appendix D. STIG Compliance
   The CS had ineffective processes for managing computing device configuration
   in accordance with the DoD STIGs. We identified noncompliant trends in
   password and account management, system permissions, security settings,
   mainframe configuration settings, and baseline comparisons. Many of these
   issues were identified in prior audit reports.

   Note: For reporting purpose, we are only including results from the devices that
   we have performed substantive testing. Therefore, the total number of devices in
   the body of the report tested will differ from the total number used for statistical
   projection. See Appendix C for details.

   Password and Account Management. CS continued to have issues
   implementing controls over password policies and account management. Shorter
   password lengths and infrequently changed passwords increase the likelihood of a
   successful brute force attack against the account. Also, the use of shared accounts
   limits the usefulness of audit trails and holding users accountable for their actions.
   We identified the following issues with CS password and account management.

          •   Sixteen of 29 Windows 2000, 3 of 19 Windows 2003, and all
              4 Windows XP devices were not configured to require password
              changes for application accounts on an annual basis. The Windows
              2003/XP/2000 Addendum (Section 4.4.2) requires application account
              passwords to be changed on a yearly basis.

          •   Fifteen of 29 Windows 2000 systems allowed non-administrators to
              increase quota rights. The Guide to Securing Windows 2000
              (Chapter 4) requires that only administrators have the ability to
              increase the processor quota assigned to a process.

          •   One of 3 Cisco Routers and 6 of 6 Juniper Routers did not have
              individual accounts for administrators. The Network STIG
              (Requirement NET0460) requires that each user have his own account
              to access the router with a username and password.

          •   Twenty-three of 46 UNIX devices did not properly configure the
              account lockout setting. The UNIX STIG (Requirement GEN000460)
              requires that the account be locked after three consecutive failed logon
              attempts.

          •   Two of 19 mainframes did not meet password complexity
              requirements. The OS/390 and z/OS STIG (Requirement RACF0460)
              requires that passwords be set to a minimum 8-character mix of letters
              and numbers.

   System Permissions. Permissions to limit access to devices, directories, and files
   and registry settings were not in compliance with DoD STIGs. System
   permissions commonly include account privileges to execute processes and access
   control lists that provide file access permissions. As a result, vulnerabilities


                                        40
created from incorrectly set permissions could compromise the device and
provide users with unauthorized access to configuration settings and data.

         Windows Permissions. Eighteen of 29 Windows 2000 and 11 of
19 Windows 2003 systems had incorrect user rights settings that allowed users to
act as part of the operating system. The user rights setting defines the user’s
ability to perform certain system functionality. The Windows STIG (Chapter 5)
requires that no one to have the right to act as part of the operating system.

         UNIX Permissions. The SAs did not configure 8 of 46 UNIX devices in
accordance with the STIG requirement. The UNIX STIG (Requirement G053)
requires the SA to ensure that user home directories have initial access
permissions set to 700, and never more permissive than 750, unless fully justified
and documented by the IAO. A user is assigned a home directory to maintain
files for the user’s exclusive use. A permission setting of 700 allows read, write,
and execute privileges to the owner and no privileges to the user’s group or any
other user. Permission settings above 750 would allow group read and execution
of selected files.

         In addition, the SAs did not configure 9 out of 46 UNIX devices with an
Umask setting to 077. Umask defines the permissions a file has when the file is
initially created on the UNIX device. The UNIX STIG (Requirement G089)
requires that the Umask be set to a default value of 077, so only the file owner has
read, write, and execute privileges while other users have no privileges.

       Network Permissions. Authentication servers were not used to grant
administrative access in one of three Cisco Routers and six of six Juniper Routers.
The Network STIG (Requirement NET0430) requires the IAO or Network
Security Officer to ensure that an authentication server is used to gain
administrative access to routers. Authentication servers provide centralized
authentication to the routers and controls the authority levels granted to users in
them.

Security Settings. Security settings were incorrectly configured for Windows
and Network devices. Vulnerabilities created from incorrect security settings
could compromise the device and provide users with unauthorized access to
configuration settings and data.

        Services. Fifteen of 29 Windows 2000 systems did not enable the
“Prevent Automatic Updates” setting. Windows STIG (Requirement 5.060)
requires that the IAO ensure the “Prevent Automatic Updates” setting is enabled.
Settings for services were set incorrectly or not disabled for 24 of 29 Windows
2000, 11 of 19 Windows 2003, and all 4 Windows XP. Windows STIG
(Requirement 5.068) requires the IAO and SA to ensure that unnecessary services
be removed or disabled. Two of 3 Cisco routers had Proxy ARP enabled. The
Network STIG (Requirement NET0780) requires Proxy ARP to be disabled
because Proxy ARP would allow a router to extend the network across multiple
interfaces. Running unnecessary services, or services not properly secured, could
allow a malicious user to exploit vulnerabilities of a service to gain access to the
device.



                                     41
                    Warning Banners. The SAs did not deploy warning banners on all six
            Network Juniper routers. The Network STIG (Requirement NET0340) requires
            that the Network Security Officer ensure the deployment of warning banners on
            all network devices allowing Secure Shell, 11 telnet, 12 file transfer protocol, or
            hypertext transfer protocol access. The absence of a warning banner could be
            construed as an invitation, without restriction, to log on to the device.

            Mainframe Configuration Settings. Mainframes at DECCs Mechanicsburg,
            Ogden and St. Louis were not in compliance with the Mainframe STIG for the
            following critical mainframe operating system components.

                   •   Fourteen of the 19 mainframes did not have the correct Customer
                       Information Control System configuration. The Customer Information
                       Control System allows programmers to develop application code to
                       perform interactive processing. Section 8.2 of the Mainframe STIG
                       requires that the IAO implement a series of Customer Information
                       Control System permission settings to provide multi-leveled access and
                       resource protection.

                   •   Twelve of the 19 mainframes did not have the correct OS/390 UNIX
                       System Services configuration. The OS/390 UNIX System Services
                       provides a UNIX environment to mainframe users. Section 2.5 of the
                       Mainframe STIG requires a series of configuration settings in order to
                       provide mainframe users with UNIX functions.

                   •   Eight of the 19 mainframes did not have the correct Communication
                       Server configuration. The Communications Server supports secure
                       networking on an enterprise scale. Section 4.4 of the Mainframe STIG
                       requires a series of configuration settings to enhance network security.

            Failure to effectively manage the supporting infrastructure increases the risk of an
            individual gaining unauthorized access to information assets and network
            resources.

            Baseline Comparison. SAs did not follow DoD STIGs for creating, checking,
            and maintaining system baselines for UNIX and Windows systems. A baseline is
            an image, record, or backup that contains a snapshot of the system after it has
            been fully loaded with operating system files, applications, and users. Thus,
            unauthorized changes may indicate system compromise and a baseline may
            prevent serious damage by detecting unauthorized changes in a timely manner.
            The IAO is responsible for verifying the system baseline and the IAM is
            responsible for setting the overall baseline creation and maintenance policy.




11
      Sometimes known as Secure Socket Shell, it is a UNIX-based command interface and protocol for
     securely accessing a remote computer.
12
      A utility program and protocol that allows one to connect to another computer on a network. After
     providing a username and password to login to the remote computer, one can enter commands that will be
     executed as if entered directly from the remote computer’s console.



                                                     42
The following devices did not comply with STIG requirements on baseline
comparison.

       •   Eighteen of 46 UNIX systems did not compare the audit events file to
           the baseline backup file and follow up on discrepancies. The UNIX
           STIG (Section 10.1.1) requires that the audit event file be compared
           against its baseline backup file and for the IAO to investigate any
           discrepancies.

       •   Fourteen of 29 Windows 2000 devices and 9 of 19 Windows
           2003 devices did not have evidence that system baselines were being
           created and reviewed by the SA and IAO. The Windows STIG
           (Requirement 1.024) requires the SA to create, check, and maintain a
           current system baseline for all servers and critical workstations.




                                   43
Appendix E. Criteria for Technical Evaluation
    All devices from the statistical sample were compared to the following criteria to
    determine whether each device individually met the criteria to operate in the CS
    environment.


Connection Approval Process
    “Mandatory Information Assurance Guidance, DISA Computing Services
    Operations Policy Letter 05-09,” 31 August 2005.


Mainframe
    “SRR Review Procedures OS/390 & z/OS TSS Checklist,” Version 5,
    Release 1.1, January 2006

    “SRR Review Procedures OS/390 & z/OS RACF Checklist,” Version 5,
    Release 1.1, January 2006

    “SRR Review Procedures OS/390 & z/OS ACF2 Checklist,” Version 5,
    Release 1.1, January 2006

    “OS/390 & z/OS Security Technical Implementation Guide,” Version 5,
    Release 1, January 21, 2005


Network
    “Network Infrastructure Security Checklist,” Version 6, Release 4, December 23,
    2005

    “Network Infrastructure Security Technical Implementation Guide,” Version 6,
    Release 4, December 16, 2005

    “Cisco IOS Router Checklist Procedures Guide,” December 2, 2005

    “Juniper JUNOS Router Checklist Procedures Guide,” December 2, 2005




                                        44
UNIX
   “UNIX Security Technical Implementation Guide,” Version 5, Release 1,
   March 28, 2006

   “UNIX Security Checklist,” Version 4, Release 4, December 15, 2005

   “UNIX Security Technical Implementation Guide,” Version 4, Release 4,
   September 15, 2003


Windows
   “Windows 2003/XP/2000 Addendum,” Version 5, Release 1, August 29, 2005

   “National Security Agency Guide to Securing Microsoft Windows XP,”
   Version 1.1, December 2003

   “Microsoft Windows Server 2003 Security Guide,” November 23, 2003

   “National Security Agency Guide to Securing Microsoft Windows 2000 Group
   Policy: Security Configuration Tool Set,” Version 1.2, December 3, 2002




                                    45
Appendix F. Acronyms
       Admin LAN   Administrative Local Area Network
       CS          Center for Computing Services
       DAA         Designated Approving Authority
       DECC        Defense Enterprise Computing Center
       DISA        Defense Information Systems Agency
       DITSCAP     Department of Defense Information Technology
                   Security Certifications and Accreditation Process
       FSO         Field Security Operations
       GAO         Government Accountability Office
       HIDS        Host-Based Intrusion Detection System
       IA          Information Assurance
       IACMS       Integrated Asset and Configuration Management
                   System
       IAM         Information Assurance Manager
       IAO         Information Assurance Officer
       IT          Information Technology
       MAC         Mission Assurance Category
       OMB         Office of Management and Budget
       POA&M       Plan of Action and Milestones
       SA          System Administrator
       SLA         Service Level Agreement
       SRR         Security Readiness Review
       SSAA        Systems Security Authorization Agreement
       SSO         Systems Support Office
       STIG        Security Technical Implementation Guide
       TMS         Trouble Management System
       VMS         Vulnerability Management System




                        46
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. Strategic Command

Other Defense Organizations
Director, Defense Commissary Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget
Government Accountability Office




                                          47
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security, and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      48
Defense Information Systems Agency, Chief
Information Officer Comments




                      49
50
51
Defense Information Systems Agency, Center for
Computing Services Comments




                      52
53
54
55
56
57
Defense Information Systems Agency, Field
Security Operations Comments




                      58
59
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, in conjunction with contract auditors from
Ernst & Young, LLP prepared this report. Personnel of the Technical Assessment
Directorate and the Quantitative Methods Directorate of the Department of
Defense Office of Inspector General also contributed to the report.

Paul J. Granetto
Patricia A. Marsh
Patricia C. Remington
Frank C. Sonsini
Suzette L. Luecke
Anh H. Tran
Michael L. Davitt
Chanda D. Lee-Baynard
Danial J. Olberding
Chi H. Lam
Henry D. Barton
Kandasamy Selvavel
Minh Q. Tran
Ernest Fine
Wen-Tswan Chen
Christopher J. Bitakis
Ann L. Thompson
Erika D. Boyle
